C'OCKLE
2311 Douglas Street CX Le g al Brief $ E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

COLUMBIAN FINANCIAL CORPORATION,
Petitioner,

v.
TIM KEMP, in his official capacity
as Bank Commissioner of Kansas;
Deputy Bank Commissioner of Kansas,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8650 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE \
corm Noy ; Mitte, 4h CLL
State of Nebraska *

Notary Public Affiant 38408

My. Commission Expires Nov 24, 2020

 
